   January 26, 2004




Logistics

Allegations Concerning
Management Practices at Defense
Distribution Depot Susquehanna,
Pennsylvania
(D-2004-048)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

BCA                   Business Case Analysis
CCP                   Container Consolidation Point
DDC                   Defense Distribution Center
DDSP                  Defense Distribution Depot Susquehanna, Pennsylvania
DLA                   Defense Logistics Agency
DSS                   Distribution Standard System
EOAC                  Employee Outplacement Assistance Center
ICP                   Inventory Control Point
OIG DoD               Office of the Inspector General of the Department of Defense
RIF                   Reduction in Force
          Office of the Inspector General of the Department of Defense
Report No. D-2004-048                                                   January 26, 2004
   (Project No. D2003LD-0074)

         Allegations Concerning Management Practices at Defense
              Distribution Depot Susquehanna, Pennsylvania

                                Executive Summary

Who Should Read This Report and Why? Senior logistics and supply managers
should read this report. This report discusses allegations of inappropriate management
practices at the Defense Distribution Depot Susquehanna, Pennsylvania.

Background. We performed this evaluation in response to a congressional request.
Congressman Todd Russell Platts forwarded an inquiry that contained 20 allegations of
inappropriate management practices at the Defense Distribution Depot Susquehanna,
Pennsylvania (DDSP). Of the 20 allegations, 12 relating to day-to-day operations were
forwarded to the Defense Logistics Agency for review. Another allegation concerning
personnel management was addressed by both the Defense Logistics Agency and the
Office of the Inspector General of the Department of Defense. The Office of the Inspector
General of the Department of Defense also addressed the remaining seven allegations
concerning strategic management decisions related to a business case analysis, staffing,
overtime, contractor support, and transfers of workload to and from other depots. The
Defense Distribution Center, under Defense Logistics Agency management, is
headquarters to 22 Defense Logistics Agency Distribution Depots, including DDSP.
DDSP is the Defense Logistics Agency eastern strategic distribution platform, with
facilities in New Cumberland and Mechanicsburg, Pennsylvania, that stock approximately
600,000 items including repair parts, clothing, textiles, medical supplies, and electronic
components. During FY 2002, DDSP processed approximately 7 million materiel
transactions involving direct shipments and container consolidations.

Results. None of the 13 allegations addressed by the Defense Logistics Agency were
substantiated. See Appendix B for a discussion of the 13 allegations and conclusions
addressed by the Defense Logistics Agency.

None of the eight allegations addressed by the Office of the Inspector General of the
Department of Defense were substantiated, primarily because the management at DDSP
made prudent decisions and took appropriate action in responding to significant
unforeseen workload fluctuations and organizational issues. However, we did find
opportunities for improvement in performance management for container consolidation
point management and the Distribution Standard System (Appendix C). See the finding
section for a discussion of the eight allegations and conclusions addressed by the Office
of the Inspector General of the Department of Defense.

Management Comments. Although no comments were required, the Defense Logistics
Agency concurred with the report finding. See the Finding section of the report for a
discussion of management comments.
Table of Contents

Executive Summary                                                   i


Background                                                         1


Objectives                                                         2


Finding
     Management Practices at the Distribution Depot Susquehanna,
       Pennsylvania                                                 3


Appendixes
     A.   Scope and Methodology                                    13
     B.   Defense Logistics Agency Review Results                  14
     C.   Opportunities for Improvement                            32
     D.   Report Distribution                                      34

Management Comments
     Defense Logistics Agency                                      37
Background
    We performed this evaluation in response to a congressional request.
    Congressman Todd Russell Platts forwarded an inquiry on behalf of a constituent
    that contained 20 allegations of inappropriate management practices at the
    Defense Distribution Depot Susquehanna, Pennsylvania (DDSP). Of the
    20 allegations, 12 relating to day-to-day operations were forwarded to the
    Defense Logistics Agency (DLA) for review. One allegation concerning
    personnel management was addressed by both DLA and the Office of the
    Inspector General of the Department of Defense (OIG DoD). The OIG DoD also
    addressed the remaining seven allegations regarding strategic management
    decisions. A summary of the 13 allegations forwarded to DLA and the DLA
    analysis and conclusions are in Appendix B. We addressed the following eight
    allegations.

       •   DDSP made poor management decisions based on a flawed business case
           analyses (BCA) that justified a reduction in force (RIF), which resulted in
           backlogs and impeded shipments to military personnel stationed overseas.

       •   DDSP failed to correctly maintain staffing levels, had an excessive layer
           of supervisors, discriminated against handicapped (disabled) personnel,
           and exceeded the established cost for contractor support of an Employee
           Outplacement Assistance Center (EOAC).

       •   The Defense Distribution Center (DDC) and DDSP used contractor
           support to perform functions that were the responsibility of DDSP and
           DDC employees, and DDSP experienced large overtime expenditures as a
           result of staffing shortages created by the RIF.

       •   DDSP management actions falsely inflated the on-time performance metric.

       •   After DDSP implemented the RIF, a huge increase in workload was
           created by a shift of 13,000 stock items from the Defense Distribution
           Depot Richmond, Virginia.

       •   The DDSP movement of a large amount of stock from New Cumberland
           to Mechanicsburg and immediately back to New Cumberland resulted in
           an unnecessary, inefficient, and expensive use of resources.

       •   DDSP implemented a massive reorganization without a staffing plan for
           supervisors.

       •   DDSP management actions forced employees to bypass work-in-progress,
           including high priority shipments, in favor of completing dedicated truck
           shipments.

    DDC Organization and Mission. DDC, located at New Cumberland,
    Pennsylvania, was established October 1, 1997, by consolidating the Defense
    Distribution Region East and the Defense Distribution Region West. DDC is the


                                        1
    organization responsible for the receipt, storage, preservation, and worldwide
    transportation of all items placed under its accountability by DLA and the
    Military Departments. DDC is headquarters to 22 DLA Distribution Centers
    located throughout the United States, Europe, and Japan. Those 22 sites store
    over 3.6 million items in 325 million cubic feet of storage space and process over
    24 million transactions annually. As of January 2003, the DDC inventory was
    valued at $84.1 billion. The DDC mission is:

               To distribute, store, and manage materiel and information enabling a
               seamless, tailored worldwide DoD Distribution network that provides
               effective and efficient support to the combatant commands, military
               services and other agencies, in theater and out, during war and in peace.

    DDSP Organization. DDSP is the DLA eastern strategic distribution platform
    that has facilities in New Cumberland and Mechanicsburg, Pennsylvania. DDSP
    provides military and commercial repair parts, clothing and textiles, medical
    supplies, and industrial and electronic components to military customers
    throughout the world. The New Cumberland, Pennsylvania, depot is the largest
    distribution facility in DoD.

    DDSP stocks approximately 700,000 items valued in excess of $6.2 billion and
    also functions as a container consolidation point (CCP) for the Army and Air
    Force by consolidating materiel into containers for overseas shipments. During
    FY 2002, DDSP processed approximately 7 million materiel transactions
    involving direct shipments and container consolidations. DDSP is also the host
    activity for the New Cumberland, Pennsylvania, installation and is responsible for
    the day-to-day operations and maintenance.


Objectives
    Our overall objective was to determine whether workforce levels at DDSP were
    sufficient to accomplish its mission. Specifically, we reviewed and evaluated
    allegations of inappropriate management actions related to the alignment of
    civilian personnel with strategic plans, core business practices, and overall
    mission objectives. See Appendix A for a discussion of the scope and
    methodology and prior coverage related to the objectives.




                                             2
                    Management Practices at the Distribution
                    Depot Susquehanna, Pennsylvania
                    The allegations concerning inappropriate management practices were not
                    substantiated. The allegations were not substantiated primarily because
                    the management at DDSP made prudent decisions and took appropriate
                    action in response to significant workload fluctuations and organizational
                    issues. Specifically, the allegations were not substantiated because:

                         •   The BCA and subsequent RIF was based on generally accurate
                             projections until the events of September 11, 2001, which resulted
                             in unforeseen workload increases.
                         •   DDSP prudently responded to the workload fluctuations by using
                             employee overtime, part-time and temporary employees, and by
                             hiring full-time employees. Further, the supervisor-to-employee
                             ratio was consistent with the ratio for all depots.

                         •   DDC justified the use of contractor support services to assist in the
                             A-76 Competitive Sourcing1 process and subsequent review of the
                             processes in place at DDSP.

                         •   The on-time performance metric was not affected by the number of
                             cancellation orders, and there was no evidence of false ticketing.

                         •   The transfer of stock from Defense Distribution Depot Richmond
                             and other depots to DDSP was more than offset by subsequent
                             transfers from DDSP to other depots.

                         •   The movement of stock between New Cumberland and
                             Mechanicsburg was part of the overall DDC streamlining plan.

                         •   The organizational changes were approved and implemented
                             through a realignment plan that included a concept of operations, a
                             plan of action, a staffing plan, and established milestones.

                         •   DDSP prioritized and aligned staffing assignments on a daily basis
                             to ensure that customer objectives were met.

BCA Workload Projections
           Allegation. DDC and DDSP made poor management decisions based on a
           flawed BCA that justified a RIF in FY 2000. The workload at DDSP increased
           the year following the RIF, resulting in the hiring of 100 part-time employees. A
           flawed BCA contributed to backlogs that impeded the depot’s ability to make
           timely shipments to military activities stationed overseas.
1
    Office of Management and Budget Circular No. A-76, “Performance of Commercial Activities,”
    August 4, 1983 (Revised 1999). The circular establishes federal policy for competitive sourcing of
    commercial activities. The circular was subsequently revised May 29, 2003.


                                                       3
            Evaluation Results. The allegations were not substantiated. The BCA workload
            projections were generally accurate until the events of September 11, 2001, after
            which DDSP increased staffing levels in response to unanticipated changes in the
            workload for FY 2002 and FY 2003. However, we did identify opportunities for
            improvement in performance management for CCP management and the
            Distribution Standard System (DSS), which appear in Appendix C. We found
            that although workload and staffing fluctuated greatly after September 11, 2001,
            DDSP management made effective adjustments and were responsive to military
            shipping requirements. For example, overseas and domestic shipments at DDSP
            were within 10 percent of the standards for priority shipments in FY 2002.

                    Business Case Analysis. A BCA was completed in May 1999 as a result
            of the DDC long range business plan and the A-76 competitive sourcing
            processes. The BCA identified the functions, costs, workload, and other key
            profiling characteristics for operations at DDSP to establish a baseline for
            assessing operational improvements and staffing requirements. In addition, the
            BCA identified a plan to streamline DDSP operations to realize potential savings
            and increase productivity. DDC anticipated a significant decline in workload in
            future years because of more efficient business practices, such as direct vendor
            delivery2. The BCA projected a 40 percent workload decrease for FY 1999
            through FY 2005. Our review of projected and actual workload data showed that
            the BCA was generally accurate for the first 3 years. Table 1 illustrates that for
            FY 1999 and FY 2000, the actual workload decreased more than projected; for
            FY 2001, the actual workload continued to decrease but was 8 percent over the
            projection; and in FY 2002, actual workload started to increase and was
            22 percent over the projection.


                                                    Table 1. Projected and Actual Workload
                                                               Transactions Processed

                                       8.5                             8.3
                                                                             8.2
                                                                               8.2
                                        8
                                                                                     7.5
                                       7.5                                                                        7.6
                                                                 6.9                       6.9          7
                                        7                                                        6.7
                                                                                     7.2
                            Millions




                                       6.5                                                 6.8              6.4
                                        6                                                        6.2
                                                           6.1                                              5.8
                                       5.5    5.9                                                                 5.5
                                                                                                                        5.2
                                        5                                                                                     4.9
                                                     5.2
                                       4.5
                                             FY93 FY94 FY95 FY96 FY97 FY98 FY99 FY00 FY01 FY02 FY03 FY04 FY05

                                                                 BCA         Actual          Revised Projected




2
    Direct vendor delivery contracts are a method of contracting that features direct delivery from a
    designated vendor to a customer. The purpose of direct vendor delivery contracts is to reduce logistics
    response time and infrastructure costs.



                                                                        4
                   Staffing. In September 2000, as a result of the BCA, DDSP completed a
           RIF that eliminated 461 positions. After the events of September 11, 2001, the
           actual workload for FY 2002 increased by 22 percent over the projected workload,
           and DDSP used employee overtime and part-time employees as a temporary
           solution until the staffing levels could be adjusted through the workload projection
           and review process. DDSP increased FY 2002 and FY 2003 staffing levels by
           16.5 percent cumulatively in response to the changes in the workload.

                   Timeliness of Shipments. DDC data on DDSP reflected satisfactory
           performance for FY 2002, when compared to DoD standards. DDC monitors the
           timeliness of shipments at the depots, including DDSP, by routinely collecting
           and reviewing shipping data. DoD 4140.1-R, “DoD Materiel Management
           Regulation,” May 19983, establishes requirements for DoD materiel managers.
           The Regulation establishes timeline standards for shipping materiel to troops
           overseas. In FY 2002, DDSP processed approximately 7 million workload
           transactions. The shipping standard for priority materiel orders is 1 day. In
           FY 2002, DDSP processed priority materiel orders on an average of 1.1 days.
           The shipping standard for routine materiel orders is 3 days. In FY 2002, DDSP
           processed routine materiel orders on an average of 2 days.


Personnel Management
           Allegation. DDSP management failed to maintain staffing levels, had excessive
           layers of supervision, and made shift changes that resulted in an inability to meet
           performance goal metrics. The implementation of the RIF discriminated against
           disabled personnel. Also, DDSP spent $468,000 for the operation of an EOAC
           that had a “not to exceed” clause in the contract in the amount of $110,000.

           Evaluation Results. The allegations were not substantiated. DDSP prudently
           increased staffing levels to accommodate the unanticipated workload increase.
           The supervisor-to-employee ratio at DDSP, which was 1-to-16, was consistent
           with the other 21 depots. There was no evidence of any discriminatory actions
           against disabled employees. Finally, the “not to exceed” amount in the EOAC
           contract was increased by contract modifications. According to the DDC contract
           office, the total cost of the DDSP portion of the contract was $263,228, not
           $468,000, as stated in the allegation.

                   Staffing Levels and Supervision. DDSP prudently responded to the
           workload fluctuations by using employee overtime, part-time and temporary
           employees, and by hiring full-time employees. DDSP is a Defense Working
           Capital Fund activity whose staffing level is based on annual workload
           projections. The FY 2001 and FY 2002 actual workloads were higher than
           previously projected, and DDSP did not have sufficient staff to process that
           workload. Specifically, the FY 2001 actual workload was 498,554 line items
           more than projected. The actual workload for FY 2002 increased by an additional
           347,292 line items over the FY 2001 actual workload. DDSP management

3
    Superceded by DoD 4140.1-R, “DoD Supply Chain Materiel Management Regulation,” May 23, 2003.



                                                  5
authorized employee overtime and hired 142 part-time employees to process the
unanticipated workload. DDSP increased the staffing level by 91 full time
positions in FY 2002 and by 199 full time positions in FY 2003.

        According to the review by DLA in Appendix B, the reorganization of
DDSP created excess supervisory personnel. During the transition period for fully
implementing the reorganization, DDSP management used 120-day work details to
other positions through September 2003 to accommodate the excess supervisors.
After September 2003, DLA planned to eliminate excess supervisory positions
through RIF procedures. Any supervisory positions eliminated through attrition
and retirement would be replaced with production line wage grade positions. DLA
concluded in its review that the measures used by DDSP management were
prudent. We also determined that the DDSP supervisor-to-employee ratio of
1-to-16 appeared to be reasonable because it was consistent with the ratio at the
other 21 DDC depots in FY 2002.

        Discrimination Against Disabled Personnel. A smaller percentage of
employees with disabilities were separated from DDSP than employees without
disabilities. According to DDC Equal Employment Opportunity personnel, there
were no complaints filed as a result of the RIF. As a result of the RIF, the total
number of DDSP employees (2,244) was reduced by 21 percent (461 positions).
According to DDC, of the 2,244 total workforce, 260 (11.6 percent) had reported
disabilities. Based on the data DDC provided, disabled personnel reduced by the
RIF amounted to 7.3 percent (19 employees) of the 260 disabled personnel in the
workforce. There was no indication that the DDSP RIF discriminated against
disabled personnel.

        Employee Outplacement Assistance Center. The use of contractor
support to assist personnel affected by the RIF appeared to be reasonable and
appropriate. DLA Regulation No. 1410.1, “Reduction-In-Force, Furlough, and
Transfer of Function,” July 7, 1993, establishes policy and procedures governing
RIFs. The Regulation requires activities to provide outplacement assistance to
employees scheduled for separation. DDC contracted for an EOAC to assist
personnel affected by the RIF. The EOAC services were contracted out because
DDSP personnel were conducting the actual RIF, registering employees in the
Priority Placement Program, and counseling employees on retirement packages
and severance pay. According to DDSP, its personnel office was not staffed to
provide the necessary services and, in some cases, not trained in the services
offered by EOAC. EOAC offered courses in resume writing, interviewing skills,
outplacement into private sector positions, obtaining state funds for retraining
employees, and attending job fairs. DDC used an existing General Services
Administration contract to establish an EOAC for DDSP. DDC modified the
contract to accommodate the number of personnel that required the services of
EOAC. EOAC assisted 156 personnel subjected to the RIF. The initial “not to
exceed” amount of the contract was $90,000. DDC followed proper procedures
for modifying the contract amount to ensure that all personnel affected by the RIF
received EOAC services. According to the DDC contract office, the amount of
the DDSP portion of the EOAC contract was $263,228, about 56 percent of the
alleged cost of $468,000.




                                     6
Contractor Support Services and Employee Overtime
    Allegation. DDSP used contractor support services to perform functions that
    should have been assigned to DDC employees. Also, large amounts of funds
    were expended for employee overtime that was a result of the RIF.

    Evaluation Results. The allegations were not substantiated. The Office of
    Management and Budget Circular No. A-76, sets forth the procedures for
    determining whether commercial activities should be performed under contract
    with commercial sources or in-house using Government facilities and personnel.
    In March 1998, DLA announced its intent to conduct public and private
    competitions to determine whether the workload at its distribution centers should
    be outsourced.

            Contractor Support. DDC contracted for consulting and facilitation
    services in order to assist with the project management on A-76 competitive
    sourcing. The specific objectives of the contract were to provide DDC with the
    requisite expertise, knowledge, and deliverables to evaluate the current business
    functions at each of the sites under review and to recommend the best business
    practices to improve performance, reduce costs, and streamline operations.

    As the contractor reviews of the depots progressed, it became apparent to DDC
    that, due to operational requirements, the depots scheduled for evaluation in the
    latter part of the A76 competitive sourcing project would be unable to evaluate,
    plan, and execute contractor proposals within the established timelines.
    Consequently, DDC management decided that the contractor reviews would be
    redirected from the A-76 reviews to a review of the business processes in place at
    the two strategic distribution platforms, DDSP and Defense Distribution Depot
    San Joaquin, California.

    The DDC management decision to redirect the contractor support appeared to be
    reasonable. The A-76 competitive sourcing contract was already established and
    funded, and the contractor had previous experience in distribution work processes
    in place throughout the DDC and could provide commercial best practices
    experiences.

            Employee Overtime. The complainant alleged that large expenditures for
    overtime were needed because of the staffing shortages created by the RIF. DDSP
    management used employee overtime because of unanticipated workload
    increases. DDSP experienced staffing shortages in FY 2001 and FY 2002 because
    of unforeseen variances between projected and actual workload. For example, the
    FY 2001 staffing level was based on a workload projection of 6.2 million
    transactions, which in actuality turned out to be 6.7 million transactions. The
    FY 2001 workload was affected by a change in buying strategy by the inventory
    control points (ICPs) that buy the materiel that is stored and issued by DDSP and
    which was not considered in the BCA. The ICP strategy of buying less, more
    often, increased the quantity of DDSP materiel receipts and associated workload.
    The events of September 11, 2001, contributed to an increased workload for
    FY 2002. In response to the increased workload in FY 2001 and FY 2002, DDSP
    used employee overtime as one of several solutions to process the workload.


                                         7
    Table 2 contains the amount of funds that DDSP spent on overtime per fiscal year.
    Although overtime costs increased from $4.8 million in FY 2000 to $7.5 million in
    FY 2001, we believe it was an appropriate response to the increases in workload.


                        Table 2. DDSP Overtime Expenditures

           FY 1998        FY 1999        FY 2000        FY 2001        FY 2002

           $5,097,104     $4,372,401     $4,832,434     $7,507,244     $7,914,595


On-time Performance Metric
    Allegation. DDSP was inflating on-time performance metrics by canceling
    tickets with aged materiel release order dates and by committing false picks of
    materiel by printing tickets for materiel that was not in the location.

    Evaluation Results. The allegation was not substantiated. From the information
    we obtained on the ticketing process, it did not appear that management promoted
    the cancellation of aged tickets or that the number of canceled tickets and false
    picks affected the on-time performance metrics.

    Employees at DDSP were allowed to determine which tickets were processed.
    Therefore, the routine issuance and cancellation of tickets was controlled by the
    employees and not by management. Additionally, the DDSP distribution process
    was fully automated, minimizing the potential for ticket manipulation. The DSS
    was used to document and control the ticket process. Customer requirements for
    stocked items were received into DSS, and employees regularly accessed DSS
    and printed out tickets that showed customer requirements. The tickets identified
    the items to be shipped and the packaging and transportation requirements. After
    the tickets were printed, the employees would pull the materiel from stock and
    forward the materiel to the various stations for packaging and shipping.

    One of the performance metrics for DDSP was the total time to process a materiel
    shipment that was measured from the receipt of a materiel release order from the
    ICP through the shipment of the materiel. The complainant alleged that DDSP
    management was inflating that performance measurement by canceling tickets
    with aged materiel release order dates and re-entering new materiel release order
    dates into DSS. The canceling and re-entering actions would record faster
    shipping times in DSS than were actually achieved. In a hypothetical example, if
    an item were shipped on January 30, 2003, for a ticket with a materiel release
    order date of January 1, 2003, the total performance measurement for issuing
    would be 29 days. However, if the ticket were canceled and re-entered into DSS
    with a materiel release order date of January 29, 2003, an issue time of 1 day
    would be recorded, inflating the performance results.

    The DSS internal controls minimized the opportunities for DDSP management to
    inflate performance data for the materiel shipment process. The ICPs initiated the
    cancellation process with a request to cancel a ticket by automated uplink through


                                         8
           DSS. When an employee pulled the materiel that had been canceled and scanned the
           bar code into DSS, DSS would recognize that the materiel release order had been
           canceled. The materiel would be automatically redirected to a workgroup leader
           who had authorization in DSS to complete the cancellation process and return the
           materiel to stock. When the cancellation process was complete, the canceled tickets
           were recorded in DSS, creating a complete audit trail. The DSS database showed
           that 22,421 (.35 percent) out of 6.4 million materiel release order transactions had
           been canceled over a 12-month period ending September 30, 2002. Because
           canceled orders represented less than one percent of total transactions processed, the
           influence on performance metrics would have been marginal for that time frame.

           The allegation also stated that management had been inflating the on-time
           performance metrics by performing false picks for tickets that were printed
           without materiel being at a location. We were unable to determine how the action
           described in the allegation would affect on-time performance. We requested
           clarification from the complainant and other employees on the process; however,
           they provided insufficient information and data to explain how false picks would
           affect the performance metrics. Based on our understanding of the process, the
           on-time performance metrics would not be affected by false picks because if an
           item were not at a location, the materiel would be unavailable and could not be
           shipped. According to DDSP, performance metrics are calculated by using the
           materiel release order date and the materiel ship date, which are recorded by
           separate inputs to the DSS. If no materiel was available to be shipped when an
           employee printed a ticket, the bar code information on the materiel and shipping
           date could not be recorded in DSS by shipping personnel. Consequently, the
           ticket would not be included in the on-time performance metric calculations.


Workload Transfers from Other Depots
           Allegations. The transfers of workload from Defense Distribution Depot
           Richmond, Virginia, represented a huge increase in the DDSP workload shortly
           after the RIF. In addition, work is constantly being transferred to DDSP from
           other depots.

           Evaluation Results. The allegation was not substantiated. The transfer of stock
           from Defense Distribution Depot Richmond, Virginia, and other depots to DDSP
           did not cause a significant workload increase. To improve readiness and customer
           wait time, DDC implemented a strategic stock-positioning plan for the 22 depots.
           The goal of the plan was to position the right stock at the right distribution depot,
           which resulted in stock being transferred to and from DDSP and other depots.
           Because of repositioning and streamlining efforts, DDSP both received and
           transferred stock items. From FY 2001 through August 2003, 39,523 items4 were
           transferred from DDSP to other depots, and 37,651 items5 were transferred to
           DDSP from other depots. Items that were transferred to DDSP from other depots
           totaled less than the number of items transferred from DDSP to other depots.

4
    Total numbers of items were counted only once for FY 2001, FY 2002, and FY 2003 even if shipped
    more than once.
5
    Total number of items counted once per year.


                                                    9
Stock Transfers Between New Cumberland and
  Mechanicsburg
    Allegation. DDSP management expended a large sum of time and money on the
    movement of a large quantity of stock from the New Cumberland site to the
    Mechanicsburg site and back without the knowledge or permission of the item
    manager.

    Evaluation Results. The allegation was not substantiated. Although New
    Cumberland and Mechanicsburg are at different locations, both are considered
    facilities within the complex of DDSP operations. According to ICP guidelines,
    if stock were moved from one facility to another within the same depot, no
    notification to the ICP was required, nor was DDSP required to track daily
    movements of stock between locations. Therefore, DDSP was not required to
    obtain permission from the ICP to move stock between the two facilities, and did
    not maintain records on daily movements. The complainant was unable to
    provide additional information and documentation for any single large movement
    of stock between the two facilities, and DDSP officials stated that there was no
    single large movement of stock between New Cumberland and Mechanicsburg.
    We concluded that daily movements of stock between New Cumberland and
    Mechanicsburg were routinely accomplished to relocate and reposition stock in an
    effort to streamline DDSP operations; such movements of stock were a
    management prerogative, and there was no evidence to support any unauthorized
    or inappropriate movement of materiel between locations.


DDSP Realignment Plan
    Allegation. DDSP was implementing a massive reorganization on a “piecemeal
    basis” without a definite plan regarding the number or grade-levels of supervisors
    required throughout the organization.
    Evaluation Results. The allegation was not substantiated. DDSP implemented an
    organizational realignment plan and had completed a concept of operations, a plan
    of action, a staffing plan, and established milestones to meet the objective of the
    plan. During FY 2001 and FY 2002, DDSP experienced variances between
    projected and actual workloads that caused staffing shortages; however, DDSP
    effectively used employee overtime to offset those staffing shortages during the
    period of increasing workloads. DDSP was also cognizant of the impact of the
    reorganization on supervisor-to-employee ratios and maintained a 1-to-16 ratio
    throughout FY 2002, which was consistent with the ratio at the other 21 DDC
    depots. Additionally, the DLA review in Appendix B concluded that DDSP had
    an effective plan and used prudent measures to accommodate excess supervisory
    personnel resulting from the reorganization.

    During the period of increasing workload, DDSP implemented a “get well plan”
    that included establishing a business process reengineering team to review
    operations. The organizational realignment was a DDSP improvement project that
    was recommended by the business process reengineering team. The team also


                                        10
    recommended that DDSP be restructured into work shifts. DDSP management
    provided routine briefs on the status and progress of the realignment to DDC.


Workload Management
    Allegation. DDSP management forced employees to bypass work-in-progress,
    including high priority requirements, in favor of completing dedicated truck
    shipments. That practice impedes the ability to support troops who have
    submitted a priority request based on need.

    Evaluation Results. The allegation was not substantiated. DDSP management
    prioritized and managed workloads on a daily basis to ensure that customer
    objectives were met. DDSP management had the prerogative of emphasizing
    work-in-progress or dedicated truck shipments, as the workload dictated. We
    found no evidence that DDSP was emphasizing dedicated truck shipments to the
    detriment of processing high-priority materiel. Our evaluation of the picking,
    packing, and shipping process indicated that there was no clear detriment to the
    processing of priority materiel because of a supervisor’s emphasis on dedicated
    truck shipments over work-in-progress.

    Picking, Packing and Shipping Process. According to DDSP officials,
    operations were conducted in three daily work shifts and a weekend shift. DDSP
    stated that the picking, packing, and shipping process is the same for all work
    shifts and work is accomplished in a priority sequence: high priority requisitions
    for multiple deliveries, dedicated truck requisitions, and routine requisitions.
    DDSP reported that since most deliveries to DDSP occurred during the day shift,
    the first shift focused on unloading trucks and sorting and inspecting materiel in
    addition to picking, packing, and shipping materiel; the second shift focused on
    processing receipts of materiel and replenishing stock in forward areas as well as
    picking, packing, and shipping; the third shift focused almost exclusively on
    picking, packing, and shipping high priority requisitions; and the weekend shift
    focused on picking, packing, and shipping high priority items and reducing any
    backlog that existed.

    Dedicated Truck Shipments and Work-in-Progress. Work-in-progress and
    dedicated truck shipments are two phases of the DDSP materiel picking, packing,
    and shipping process that have unique priorities. DDC established dedicated
    truck shipments to support high volume customers that receive numerous
    shipments from DDC depots. For dedicated truck shipments, an agreement was
    established between DDC and its customers to deliver all cargo, regardless of
    priority and size. Delivery times and locations were pre-arranged.

    Dedicated truck shipments are usually scheduled for departure at a specified time
    of the day; thereby establishing a priority for loading a dedicated truck. Work-in-
    progress includes work that is not complete or ready for shipment, and dedicated
    truck shipments consist of completed work that is ready for shipment. The DDSP
    management balanced staffing assignments between work-in-progress and
    dedicated truck shipments to ensure that priorities and overall materiel picking,
    packing, and shipping objectives were accomplished.


                                        11
    Management Direction. According to DDSP officials, management was
    responsible for prioritizing and managing daily workload to meet customer
    objectives and workload priorities that changed daily based on urgency and
    worldwide events. DDSP stated that it had one manager per shift, with
    subordinate supervisors, responsible for redirecting the workforce, when
    necessary, to complete its assigned tasks. DDSP also stated that both work-in-
    progress and dedicated truck shipments included the processing of priority
    materiel.

    Both work-in-progress and dedicated truck shipments included priority materiel,
    but a management decision to emphasize one over the other during the picking,
    packing, and shipping process was sometimes required during daily operations.
    Emphasizing dedicated truck shipments could delay picking and packing of
    priority materiel. Likewise, emphasizing work-in-progress could delay the
    shipping of priority materiel included in dedicated truck shipments. However,
    management had the discretionary authority to emphasize one of those separate
    daily operations to ensure that the overall processing of priority materiel met the
    delivery objectives of the customers. The management decisions to give priority
    to dedicated trucks at any given time in the picking, packing, and shipping
    process appeared to be reasonable.


Conclusion
    None of the eight allegations reviewed by the OIG DoD were substantiated,
    primarily because the management at DDSP made prudent decisions and took
    appropriate action in responding to significant unforeseen workload fluctuations
    and organizational issues. We found no instances of inappropriate actions,
    discrimination, or wrongdoing on the part of management at DDSP.


Management Comments
    The Executive Director, Distribution and Reutilization Policy, Defense Logistics
    Agency concurred with the report finding.




                                         12
Appendix A. Scope and Methodology
    We contacted and discussed the allegations with the complainant. We also
    interviewed officials at DLA, DDC, and DDSP regarding the allegations of
    inappropriate management practices. We developed a history of DDC and DDSP
    business practices from command briefings, the DDC long-range business plan,
    and the DDC BCA. The documents we reviewed included DoD and DLA
    guidance, contractor support contracts, and official correspondence. We
    collected, reviewed, and analyzed data on the DDC BCA, the DDSP RIF, the
    DDC EOAC contract, the DDSP business process reengineering plan, staffing,
    overtime costs, workload, and on-time performance metrics. We reviewed the
    data to determine if the events occurred as described in each allegation. The
    documents we reviewed were dated from May 1998 through October 2003.

    We performed this evaluation from February 2003 through December 2003
    according to standards implemented by the Inspector General of the Department
    of Defense. Our scope was limited to reviewing 7 of the 20 allegations. The
    remaining allegations were forwarded to DLA. We also addressed a portion of
    one allegation concerning personnel management that was also forwarded to the
    DLA. Because our objective was limited to the allegations regarding DDC and
    DDSP management practices, we did not review the management control
    program.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the DSS database to aid in evaluating on-time performance for materiel
    shipments. We did not perform a formal reliability assessment of the computer-
    processed data. A review of the DSS data for the period October 2002 through
    February 2003 indicated that 467 out of 226,797 records contained erroneous
    materiel shipment dates. The errors did not preclude the use of the data to meet
    evaluation objectives and would not change the conclusions of this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the defense inventory management high-risk area.


Prior Coverage
    No prior coverage has been conducted on management practices at DDC or
    DDSP during the last 5 years.




                                       13
Appendix B. Defense Logistics Agency Review
            Results




                      14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
Appendix C. Opportunities for Improvement
    A review of the DDC performance management system identified opportunities
    for improvement in monitoring CCP transactions and the DSS database. The
    DDSP mission is to store, manage, and distribute materiel as part of the
    worldwide DoD distribution network that provides support to the Military
    Departments and other agencies during peace and war. The absence of CCP
    overseas transactions as a command metric increased the risk of military units
    overseas not receiving materiel according to DoD standards. Database errors
    increased the risk that metrics reflecting materiel shipping times were inaccurate.
    DDSP should evaluate standards and procedures for monitoring CCP and the
    accuracy of DSS in order to improve the efficiency and accuracy of performance
    metrics reflecting its important mission.


Container Consolidation Point Management
    Materiel for overseas shipments are combined at CCPs. DDSP functions as a
    CCP for materiel received from vendors and other sources for overseas Army and
    Air Force units. DoD Materiel Management Regulation 4140.1-R, Appendix 8,
    “Uniform Materiel Movement Issue Priority System Time Standards,” May 1998,
    prescribes procedures on the uniform management of DoD materiel, including
    specific standards for CCPs. On-time performance standards for CCPs are
    promulgated in that regulation. The standards are based on priority designators,
    urgency of need, and required delivery date.

    We observed that DDSP did not monitor the on-time performance for
    approximately 6.6 million overseas shipments for compliance with the
    DoD 4140.1-R from FY 1998 through FY 2002. Consequently, DDSP
    management was unable to determine the timeliness of overseas shipments to
    military units.


Distribution Standard System
    DDSP had two designated command-level metrics for monitoring issuance of
    materiel to customers. The metrics were designed to collect data and show the
    average time required to ship an item after receipt of the materiel release order
    from the inventory control point. DSS was used to document materiel receipt,
    storage, issue, packaging, and shipping. The factors used to calculate on-time
    shipping performance were recorded and maintained in the DSS database.

    A review of the database for entries during FY 2002 revealed questionable
    shipping dates and timeframes. Out of 226,797 transactions for supporting
    Operation Enduring Freedom, there were 467 instances of shipping times that had
    negative numbers. Further analyses indicated that the negative numbers resulted
    from data that had shipping dates that were prior to the date of receipt of materiel


                                         32
release orders by DDSP. The materiel release order identifies the customer,
materiel requirement, and requisition number for cost accounting and authorizes
DDSP to ship the materiel. From our knowledge of the DDSP process, materiel is
not shipped before receipt of the materiel release order. The database also
reflected some unusually long shipping times. For example, one item had a
shipping time of 2,187 days (6 years).




                                  33
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          34
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform

Honorable Arlen Specter, U.S. Senate
Honorable Rick Santorum, U.S. Senate
Honorable Todd Russell Platts, U.S. House of Representatives




                                         35
Defense Logistics Agency Comments




                      37
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Commander Jimmy R. Bobbitt, U.S. Navy
Kayode O. Bamgbade
Robert M. Paluck
Susann L. Cobb
Lusk F. Penn
James Hartman
